IN THE
SUPREME COURT OF THE UNITED STATES

CLINTON RUMLEY
— PETITIONER

VS.

UNITED STATES OF AMERICA
— RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

Please check the appropriate boxes:
{x] Petitioner has previously been granted leave to proceed in forma pauperis in

the following court(s):
United States Court of Appeals for the Fourth Circuit

 

United States District Court for the Western District of Virginia

 

Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.

 

 

Petitioner’s affidavit or declaration in support of this motion is attached hereto.

 

 

Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:

 

 

 

The appointment was made under the following provision of law:

 

 

 

a

 

a copy of the order of appointment is appended.

decd

(Signature)
leu. UO/U TZU Tt ry. bolt

FILED: June 7, 2019

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-4412
(4:08-cr-00005-JLK-JCH-1)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
CLINTON LEE RUMLEY

Defendant - Appellant

ORDER

The court appoints the Federal Defender for the Western District of Virginia
to represent Clinton Lee Rumley in this case.
For the Court--By Direction

/s/ Patricia S. Connor, Clerk

 
